           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


    PERFORMANCE MEASURE REVIEW:
 ASSESSING THE METHODOLOGY USED TO
 DETERMINE THE NUMBER OF HEARINGS
   CASES PROCESSED PER WORK YEAR

 August 2002           A-06-01-11037




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                        SOCIAL SECURITY

MEMORANDUM


Date:   August 1, 2002                                                                       Refer To:

To:     The Commissioner

From:   Inspector General

Subject: PerformanceMeasure Review: Assessing the Methodology Used to Determine the
        Number of Hearings Cases Processed Per Work Year (A-06-01-11037)


        The Government Performance and Results Act (GPRA) of 1993, Public Law 103-62,
        section 4, requires that the Social Security Administration (SSA) develop performance
        indicators that assess the relevant service levels and outcomes of each program activity
        set forth in SSA’s budget. GPRA also calls for a description of the means employed to
        verify and validate the measured values used to report on program performance. The
        objective of this audit was to assess the methodology used to derive the Fiscal Year
        (FY) 2000 baseline number of 97 for the following FY 2002 GPRA performance
        indicator:

               Number of hearings cases processed per work year:                      1111


        BACKGROUND
        In its FY 2001 Annual Performance Plan (APP), SSA introduced “Percent Increase in
        Office of Hearings and Appeals (OHA) Production Per Work Year (PPWY) in the
        hearings process” as a performance indicator. In its FY 2002 APP, however, SSA
        changed this performance indicator to the “Number of hearings cases processed per
        work year.” SSA believed this change better aligned the performance goal with the
        measurement and tracking systems it used to determine PPWY.




        1
         This measure represents PPWY. In the hearings process, “production” refers to the number of hearings
        cases processed. The use of PPWY throughout this report will refer to the number of hearings cases
        processed per work year.
The Agency revised the OHA PPWY performance indicator after we initiated our audit of
the FY 2001 measure. As such, we refocused our efforts to proactively address the
new measure, “Number of hearings cases processed per work year.” Specifically, we
assessed the methodology used to derive the FY 2000 baseline number of 97 for this
revised performance indicator.2

SSA’s revised OHA PPWY indicator represents the average number of hearings cases
processed per “direct” work year expended. A case is considered processed when a
hearing office makes a decision or dismissal. The time involved in the work year
includes the time worked by OHA employees in the 10 OHA regional offices, hearing
offices within each region, Office of the Chief Administrative Law Judge (ALJ), and
Medicare Part B Division. According to the FY 2002 APP, a direct work year represents
actual time spent processing cases and does not include time spent on training, ALJ
travel, leave, or holidays. The formula for this indicator can be expressed as follows.


      Hearings                                         Hearings Processed
      cases per       =         (Regular Time + Overtime) – (Leave + Travel + Training)
        direct
      work year                                                 2,0803

SSA’s FY 2002 APP reflects a goal of 111 and shows the baseline years as follows.

          FY 2001 APP Goal                  FY 2000 Actual                   FY 1999 Actual
                   103                              97                               98

In FY 2000, OHA reported that it processed 539,426 cases in 5,565 direct work years at
the hearing office level.

RESULTS OF REVIEW

In assessing the methodology used to derive the FY 2000 baseline of 97 for the revised
performance indicator, we verified that the number of hearings cases processed
matched the source data (that is, the numerator in the formula shown above). However,
the data OHA used to derive direct work years (that is, the denominator in the formula)
were inaccurate or incomplete. Specifically, OHA

·     used an unofficial data source for its direct work hours and excluded some work
      hour categories;
·     did not obtain or consider all training hours or require disclosure of all offices’
      training activities;
·     did not review the accuracy and validity of data used to estimate travel time and
      used an outdated formula; and
2
    At the time of our initial audit work, FY 2000 was the most recent year completed.
3
    SSA defines a work year as 2,080 hours.


                                                       2
·   used an electronic spreadsheet that contained errors to consolidate the various data
    components.

Because of incomplete and inaccurate information, we could not determine the actual
PPWY for FY 2000. However, with information we were able to obtain, we did note that
OHA understated the net direct work hours by at least 151,906 hours and understated
the indirect hours by 132,936 hours. As shown in Table 1, these understatements
resulted in a net change of 9.12 direct work years. Although this change did not
significantly impact the reported PPWY of 97,4 inaccurate information used in
calculating the figure could affect future years’ calculations. More importantly, without
complete data with which to develop an accurate measure of the PPWY or of its
baseline data, the figures reported as a performance indicator are not as meaningful.

                       Table 1: Effect of Errors on PPWY for FY 2000

    Total Direct Work Hours Reported by OHA                                   11,574,243.20

    Errors
    Direct Hours
    Work Hours Understated                      154,461.00
    Spreadsheet Hours Overstated                 (2,555.00)
       Net Direct Hours Understated             151,906.00

    Indirect Hours
    Leave Hours Understated                      34,810.00
    Training Hours Understated                   53,977.00
    Spreadsheet Hours Understated                44,149.00
       Net Indirect Hours Understated           132,936.00
    Net Effect of Errors (Direct Hours Less Indirect Hours)                        18,970.00

    Adjusted Direct Work Hours                                                11,593,213.20

    Direct Work Years
    Adjusted Direct Work Years                                                      5,573.66
    Direct Work Years OHA Used to Develop Baseline                                 (5,564.54)
       Understatement in Number of Work Years                                           9.12

    PPWY with Adjusted Direct Work Years                                               97
    PPWY Reported as Baseline by OHA                                                   97

Additionally, OHA did not sufficiently disclose all of the data sources for the PPWY
performance indicator. While it listed the Monthly Activity Reports from the Hearing
Office Tracking System (HOTS) as data sources, it did not list payroll records, travel
reports, and the training formula needed to compute direct work years. Office of

4
 The PPWY measure was reported in the APP as a rounded number. The FY 2000 actual PPWY was
96.94 rounded to 97, and the adjusted PPWY, which we calculated using the understated direct work
years, was 96.78 rounded to 97.


                                                 3
Management and Budget (OMB) Circular A-11, Preparation and Submission of Budget
Estimates, July 17, 2001, prescribes that the APPs indicate the source of the measured
data.

NUMBER OF HEARINGS CASES PROCESSED MATCHED THE SOURCE DATA

To determine the baseline figure of 97, OHA obtained data in Monthly Activity Reports
that were submitted by individual hearing offices from information maintained in HOTS.
The number of hearings cases processed referred to the number of cases OHA
completed at the hearing office level, regardless of whether an actual hearing was held
to derive a decision or dismissal. We verified that OHA based the total number of
hearings cases included in its FY 2000 baseline calculation on figures reported in the
Monthly Activity Reports.

SOURCE DATA FOR HOURS WORKED WAS INCOMPLETE

OHA understated the number of direct hours worked by 154,461 hours, and it
understated the number of leave hours taken by a net of 34,810 hours. These errors
occurred because OHA (1) used an unofficial data source for the work hours when
preparing the cost consolidation spreadsheet and (2) did not include all work hours or
leave categories in calculating the direct work year.

SSA’s official payroll record is the Payroll Analysis Recap Report (PARR). However,
OHA used a report generated from the Time and Attendance Management Information
System (TAMIS) to obtain data for the PPWY calculation.5 OHA staff informed us that
they used TAMIS instead of PARR because PARR did not give the level of detail
needed to complete the PPWY report. Also, in calculating direct work years, OHA did
not include hours worked on holidays or exclude credit hours. Although hours worked
on holidays were included on the TAMIS report, they were not considered in the
calculation of direct work years. We noted that credit hours were not identifiable on the
TAMIS report.

To determine the effect of using the TAMIS report instead of PARR, we compared the
work hours based on PARR with the work hours derived from the TAMIS reports and
found a net understatement of 119,651 direct hours. Table 2 summarizes the
differences by category.




5
    The report is called the Summary of Time and Attendance Data for OHA.


                                                    4
          Table 2: Comparison of Cost Consolidation Hours to PARR Hours

       Type of Hours        Hours from        Hours from         Difference      OHA
                                                Cost                           Reporting
                               PARR
                                             Consolidation                      Effect
                                             Spreadsheet
 Direct Work Hours
 Regular                     13,900,900          13,754,566         146,334    Understated
 Overtime                        479,546              471,419         8,127    Understated
 Subtotal                    14,380,446          14,225,985         154,461    Understated


 Leave Hours
 Annual Leave                  1,145,160             1,154,538       (9,378)   Overstated
 Sick Leave                      601,787              554,174        47,613    Understated
 Holiday                         531,656              550,136      (18,480)    Overstated
 Admin Leave                     111,333               96,278        15,055    Understated
 Subtotal                      2,389,936             2,355,126       34,810    Understated


 Total Direct Hours          11,990,510          11,870,859         119,651    Understated
 Less Leave Hours

NUMBER OF TRAINING HOURS WAS INCOMPLETE

OHA calculated the number of training hours based on training reports compiled by the
regional offices. Each month, OHA asked the regional offices to submit the training
reports for the number of training hours completed by employees. We determined that
the number of hours charged to training was understated by at least 53,977 hours
because OHA

   ·    received only 96 of 120 training reports (80 percent) it requested from the
        regional offices during the year;

   ·    received training reports late, did not include them in the monthly PPWY
        calculations, and OHA made no adjustments later to include these hours;

   ·    did not consider the training hours applicable to the Medicare Part B Division
        when requesting the training reports; and

   ·    did not disclose all offices’ training activities.




                                                 5
For the 96 reports OHA received, we identified 46,074 hours OHA did not include in the
PPWY calculation because regional offices did not submit the training reports timely.
OHA representatives stated they received some of the training reports after the monthly
PPWY was calculated. However, once OHA received these late reports, it did not
recalculate the monthly PPWY.

OHA did not consider the hours corresponding to the 24 missing training reports in the
PPWY calculation. To determine the impact of the 24 missing training reports, we
requested these reports from the respective regional offices. The regional offices later
provided six of these reports, which reflected 7,903 training hours. We were unable to
obtain the other 18 reports because the regions had not maintained copies.
Accordingly, we were unable to determine the full impact of the missing training hours
on the PPWY baseline calculation. We also could not determine the number of training
hours applicable for the Medicare Part B Division because those records were not
available.

The practice of not maintaining training reports is contrary to OMB Circular A-123,
Management Accountability and Control, June 21, 1995, which states "documentation
for transactions, management controls, and other significant events must be clear and
readily available for examination." OMB defines management controls as the
organization, policies, and procedures agencies use to reasonably ensure that reliable
and timely information is obtained, maintained, reported and used for decisionmaking.
Therefore, agencies must establish a clear methodology for verifying performance
measure values and retain the appropriate documentation to enable an audit based on
that methodology.

We also noted the training reports OHA regional offices submitted did not identify all
component offices required to submit the reports. For example, some reports listed the
regional office itself as a reporting entity, while others did not. Also, some reports listed
all of the hearing offices in the regions and indicated whether any training was reported
for those offices. Other reports neither listed all of the hearing offices in the region nor
indicated whether an office had training hours to report. Without this information, OHA
cannot be assured that regional offices are providing a complete and accurate report of
its training hours. Unreported training activity impacts the accuracy of OHA’s PPWY
calculation.

TRAVEL TIME USED IN THE CALCULATION WAS NOT RELIABLE

The General Accounting Office’s (GAO), Evaluator’s Guide, section III, Verification and
Validation, states Agencies’ APPs “. . . should describe credible procedures to verify
and validate performance information.” GAO described procedures as credible when
they provide for periodic review of data collection, maintenance, and processing
procedures to ensure that they are consistently applied and continue to be adequate.

OHA did not review the accuracy and validity of data used to estimate travel time it
included in the PPWY calculation. OHA calculated travel hours based on a formula that
estimated the amount of ALJ and support staff travel time. OHA devised this formula in
1972, and it has not been reviewed or changed since. OHA did not maintain


                                              6
documentation to support the assumptions for the formula. Absent such
documentation, OHA cannot be assured the premise used to calculate travel is valid.
Additionally, OHA cannot be assured the formula represents the current travel practices
of ALJs and support staff.

Using this formula, OHA estimated that each ALJ spent 275 hours in travel status,
annually, to conduct hearings, and 10 percent of the time (27.5 hours, annually) a
hearings clerk traveled with the ALJ. We believe travel hours should not be limited to
ALJs and support staff conducting hearings but, rather, should include travel conducted
by any OHA employee. The time an OHA employee spends traveling, regardless of the
purpose of such travel, constitutes time not directly related to processing hearing cases
and should be considered in determining the direct work year used in the PPWY
calculation.

THE COST CONSOLIDATION SPREADSHEET CONTAINED ERRORS

OHA uses an electronic spreadsheet to capture and consolidate data when calculating
the PPWY indicator. The spreadsheet contains extensive data entry cells and formulas.
Each month, a staff member enters information into the spreadsheet to calculate PPWY
by month and reporting office. We identified inaccurate figures in the calculation of
direct work years. These inaccuracies occurred because OHA:

·   Used an incorrect data field in one of the spreadsheet formulas. Specifically, the
    formula incorporated the number of holidays instead of the number of days in the
    month. This error resulted in the understatement of 43,862 sick leave hours.

·   Estimated hours worked during 4 weeks of the year. Because each of these weeks
    occurred in the middle of a pay period and at the end of a month, actual employee
    time charges were not available when OHA entered the figures in the spreadsheet.
    Rather, OHA used estimates. The difference between the estimated and actual
    hours resulted in a net overstatement of 1,107 hours. Specifically, OHA understated
    regular hours by 1,417 hours, overstated overtime by 3,854 hours, overstated
    annual leave by 607 hours, and understated sick hours by 1,937.

·   Could not provide documentation to support outside overtime6 worked during
    2 months. As a result, OHA overstated overtime by 48 hours in the cost
    consolidation worksheet.

·   Transposed one figure in the spreadsheet resulting in a 70-hour overstatement in
    overtime. Additionally, OHA incorrectly entered the number of employees in all
    10 regions resulting in overstating holiday hours by 912.

·   Duplicated one entry, resulting in a 131-hour overstatement of sick leave.



6
 Outside overtime are hours worked by non-OHA employees, incurred while performing hearings-related
work.


                                                 7
The errors resulted in a net understatement of 41,594 hours.7 Table 3 summarizes
these inaccuracies by category.

                     Table 3: Cost Consolidation Spreadsheet Errors

                      Type of Hours             Number of              OHA
                                                  Hours              Reporting
                                                                      Effect
                   Direct Work Hours
                   Regular                               1,417      Understated
                   Overtime                             (3,972)       Overstated
                   Subtotal                             (2,555)       Overstated


                   Leave Hours
                   Annual Leave                           (607)      Overstated
                   Sick Leave                           45,668      Understated
                   Holiday                                (912)      Overstated
                   Subtotal                             44,149      Understated


                   Direct Hours Less                    41,594      Understated
                   Leave Hours

GPRA, Public Law 103-62, section 4, requires agencies to “ . . . describe the means to
be used to verify and validate measured values. . . .” Verification and validation of
values could detect errors and support the general accuracy and reliability of the
performance information that is recorded, calculated, and reported in the cost
consolidation spreadsheet.

We noted there was neither a process to ensure the continued accuracy of the formulas
nor a crosscheck of entered data. Supervisory reviews were limited to the recalculation
of select data. Also, OHA lacked policies and procedures addressing staff functions
and responsibilities and documentation of supervisory reviews.

CONCLUSIONS AND RECOMMENDATIONS

The data OHA used to calculate the number of hearings cases processed (that is, the
PPWY formula’s numerator) matched the source data; however, the data used to derive


7
  The net understatement of 41,594 was derived as follows: 43,862 understated hours (improper formula),
less 1,107 overstated hours (estimated monthly hours), less 48 overstated hours (lack of documentation),
less 982 overstated hours (input errors), less 131 overstated hours (duplicate input).


                                                   8
direct work years (that is, the PPWY formula’s denominator) were inaccurate or
incomplete. Specifically OHA:

·   used an unofficial data source for its direct work hours and excluded some work
    hour categories;

·   did not obtain or consider all training hours;

·   used training reports that did not require disclosure of all offices’ training activity;

·   did not review the accuracy and validity of the data used to estimate the travel time,
    and it used a formula that may have been outdated to estimate travel time; and

·   used an electronic spreadsheet to consolidate the various data components that
    contained errors.

Additionally, OHA did not sufficiently disclose all of the data sources for its FY 2002
PPWY performance indicator. While it listed the HOTS as the source for the hearings
processed, it did not list payroll records, travel reports, and the training formula needed
to compute direct work years.

Accordingly, we recommend SSA take the following corrective actions to improve the
process to measure production per work year in the hearing process:

1. Ensure the use of official data sources when capturing employee work hours and
   indicate the sources in the APP.

2. Include hours worked on holidays and credit hour categories to arrive at direct work
   years.

3. Establish procedures for the submission and retention of training data that will:

       ·   identify all components required to submit training reports;

       ·   require consistency in regional reporting by showing a separate line item for
           each hearings office and the regional office;

       ·   require the reporting of all training hours or explain the reason for excluding
           certain training hours;

       ·   require negative reporting if employees do not engage in training during the
           reporting period; and

       ·   establish policies and procedures for the retention of performance measure
           documentation.




                                                9
4. Update the travel formula to ensure it better reflects a measure of the current travel
   of employees and includes all employees who travel. Also, document the underlying
   assumptions for the revised formula.

5. Establish procedures to detect errors in the electronic spreadsheet and document
   supervisory reviews.


AGENCY COMMENTS
In response to our draft report, SSA agreed with all of our recommendations.
Additionally, the Agency provided technical comments, which we have included in this
report. The full text of SSA’s comments is included in Appendix C.




                                                James G. Huse, Jr.




                                           10
                            Appendices
APPENDIX A - Scope and Methodology

APPENDIX B - Acronyms

APPENDIX C - Agency Comments

APPENDIX D - OIG Contacts and Staff Acknowledgments
                                                                      Appendix A

Scope and Methodology
We conducted this audit to assess the methodology used to derive the Fiscal Year
(FY) 2000 baseline number for the performance indicator “number of hearings cases
processed per work year.” This measure was one of the FY 2002 performance
indicators SSA developed to meet the requirements of the Government Performance
and Results Act of 1993.

To assess the methodology, we

   ·   obtained FY 2000 electronic cost consolidation spreadsheets from the Office of
       Hearings and Appeals (OHA) Division of Budget and Financial Management
       (DBFM) containing monthly and year-to-date Production Per Work Year (PPWY)
       calculations in the hearings process;

   ·   reviewed the OHA cost manual to gain an understanding of how it prepared the
       cost consolidation spreadsheet and the methodology for measuring productivity;

   ·   verified that hearings disposition information on the Monthly Activity Reports and
       the Hearing Office Tracking System (HOTS) agreed with the hearings disposition
       information used to calculate PPWY;

   ·   reviewed supporting documents to verify the accuracy of time and attendance
       hours and other pertinent data as recorded in DBFM’s electronic spreadsheets;

   ·   recalculated and verified time and attendance information OHA reported on the
       cost consolidation spreadsheet;

   ·   determined whether the number of training hours reported was complete and
       accurate;

   ·   determined whether travel hours were accurately calculated; and

   ·   reviewed DBFM electronic spreadsheets and pertinent documentation with
       DBFM analysts.

In conducting this audit, we also

   ·   reviewed SSA's Annual Performance Plan for FYs 2001 and 2002 and SSA's
       Revised Final Performance Plan for FYs 2000 and 2001 to determine the
       baseline data, definition, and data source for the performance indicator;

   ·   reviewed the Government Performance and Results Act, Office of Management
       and Budget laws and regulations, and General Accounting Office guidelines;

                                          A-1
   ·   interviewed OHA DBFM staff to document the methodologies and procedures
       used to produce performance data for this indicator;

   ·   interviewed SSA’s Division of Administration Systems Development to gain an
       understanding of the Time and Attendance Management Information System
       (TAMIS); and

   ·   interviewed the Office of Financial Policy and Operations staff to gain an
       understanding of the Payroll Analysis Recap Report (PARR).

We reviewed internal controls related to our audit objective. Our review did not include
tests of the reliability of computer-processed data from TAMIS or PARR used to account
for work and leave hours or HOTS for the number of hearings cases processed. We
conducted our work at OHA Headquarters in Falls Church, Virginia, and the Office of
the Inspector General’s Dallas Field Office. We performed field work from August 2001
to January 2002, and the entity we audited was OHA within the Office of the Deputy
Commissioner for Disability and Income Security Programs. We performed our audit in
accordance with generally accepted government auditing standards.




                                           A-2
                                                      Appendix B

Acronyms

ALJ     Administrative Law Judge

APP     Annual Performance Plan

DBFM    Division of Budget and Financial Management

FY      Fiscal Year

GAO     General Accounting Office

GPRA    Government Performance and Results Act

HOTS    Hearing Office Tracking System

OHA     Office of Hearings and Appeals

OMB     Office of Management and Budget

PARR    Payroll Analysis Recap Report

PPWY    Production Per Work Year

SSA     Social Security Administration

TAMIS   Time and Attendance Management Information System
                  Appendix C

Agency Comments
                                    SOCIAL SECURITY

MEMORANDUM


Date:      July 22, 2002                                                        Refer To: S1J-3

To:        James G. Huse, Jr.
           Inspector General

From:      Larry Dye      /s/
           Chief of Staff

Subject:   Office of Inspector General (OIG) Draft Report "Performance Measure Review - Assessing the
           Methodology Used to Determine the Number of Hearings Cases Processed Per Work Year,"
           A-06-01-11037—INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report
           contents and recommendations are attached.

           Staff questions may be referred to Laura Bell on extension 52636.

           Attachment:




                                                         C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT "PERFORMANCE MEASURE REVIEW - ASSESSING THE
METHODOLOGY USED TO DETERMINE THE NUMBER OF HEARINGS CASES
PROCESSED PER WORK YEAR," A-06-01-11037

We appreciate the opportunity to comment on the draft report. Overall, we found value in the
report contents and recommendations. Our responses to the specific recommendations are
provided below. We are also providing a technical comment that we believe will improve the
content of the report.

Recommendation 1

The Social Security Administration (SSA) should ensure the use of official data sources when
capturing employee work hours and indicate the sources in the Annual Performance Plan (APP).

Comment

We agree. The Office of Hearings and Appeals (OHA) has included the additional sources used
in the preparation of the hearings production per workyear (PPWY) on the data sheet(s)
contained in the SSA Tracking Report. The Office of Strategic Management refers to the data
sheets when writing the APP. The new elements are now included in the report.

Recommendation 2

SSA should include hours worked on holidays and credit hour categories to arrive at direct work
years.

Comment

We agree. OHA staff were instructed in June 2002 to include hours worked on holidays in the
calculations. Regarding credit hours, staff in the Office of Financial Policy and Operations
(OFPO) believed that credit hours earned and credit hours used canceled each other out;
therefore, we did not include them in the report. In the next few months, OHA will work with
OFPO staff to explore the possibility of establishing a process to track credit hours, and we
expect to maintain data on their use in fiscal year (FY) 2003.

Recommendation 3

SSA should establish procedures for the submission and retention of training data that will:
identify all components required to submit training reports; require consistency in regional
reporting by showing a separate line item for each hearings office and the regional office; require
the reporting of all training hours or explain the reason for excluding certain training hours;
require negative reporting if employees do not engage in training during the reporting period;
and establish policies and procedures for the retention of performance measure documentation.




                                               C-2
Comment

We agree. In November 2001, procedures were established that require each OHA component to
submit a monthly training report listing each office, including the Regional Office, individually.
Components are also required to submit negative reports if there are no training hours to report.
The hearing offices must also provide a copy of the SSA-759 form for each training occurrence
for the month. All records will be kept electronically for the current fiscal year, and hard copies
will also be kept for the current and prior three fiscal years as well. OHA is establishing a
training record data base, and we are confident that use of the data base and the new financial
record keeping system will greatly enhance our ability to document and track training activity.

Recommendation 4

SSA should update the travel formula to ensure it better reflects a measure of the current travel
of employees and includes all employees who travel. Also, document the underlying
assumptions for the revised formula.

Comment

We agree. During FY 2003, OHA will study and propose changes to the travel formula.

Recommendation 5

SSA should establish procedures to detect errors in the electronic spreadsheet and document
supervisory reviews.

Comment

We agree. As a result of this audit, staff corrected the errors found in the spreadsheets and has
protected the cells containing formulas. Within the next 3 months, OHA plans to establish a
procedure to detect errors in the electronic spreadsheet and will implement a process to
document supervisory reviews of the monthly reports. OHA also plans to review the data
entered on the electronic spreadsheet on a quarterly basis and document those reviews.




                                                C-3
                                                                       Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Kimberly Byrd, Director, Southern Audit Division (205) 801-1605

   Paul Davila, Deputy Director (214) 767-6317

Acknowledgments
In addition to those named above:

   Lela Cartwright, Auditor

   John Bergamasco, Auditor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-06-01-11037.
                           DISTRIBUTION SCHEDULE

                                                                          No. of
                                                                         Copies

Commissioner of Social Security                                               1
Management Analysis and Audit Program Support Staff, OFAM                    10
Inspector General                                                             1
Assistant Inspector General for Investigations                                1
Assistant Inspector General for Executive Operations                          3
Assistant Inspector General for Audit                                         1
Deputy Assistant Inspector General for Audit                                  1
 Director, Data Analysis and Technology Audit Division                        1
 Director, Financial Audit Division                                           1
 Director, Southern Audit Division                                            1
 Director, Western Audit Division                                             1
 Director, Northern Audit Division                                            1
 Director, General Management Audit Division                                  1
Team Leaders                                                                 25
Income Maintenance Branch, Office of Management and Budget                    1
Chairman, Committee on Ways and Means                                         1
Ranking Minority Member, Committee on Ways and Means                          1
Chief of Staff, Committee on Ways and Means                                   1
Chairman, Subcommittee on Social Security                                     2
Ranking Minority Member, Subcommittee on Social Security                      1
Majority Staff Director, Subcommittee on Social Security                      2
Minority Staff Director, Subcommittee on Social Security                      2
Chairman, Subcommittee on Human Resources                                     1
Ranking Minority Member, Subcommittee on Human Resources                      1
Chairman, Committee on Budget, House of Representatives                       1
Ranking Minority Member, Committee on Budget, House of Representatives        1
Chairman, Committee on Government Reform and Oversight                        1
Ranking Minority Member, Committee on Government Reform and Oversight         1
Chairman, Committee on Governmental Affairs                                   1
Ranking Minority Member, Committee on Governmental Affairs                    1
Chairman, Committee on Appropriations, House of Representatives               1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                    1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Committee on Appropriations, U.S. Senate                            1
Ranking Minority Member, Committee on Appropriations, U.S. Senate             1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate               1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                  1
Chairman, Committee on Finance                                                1
Ranking Minority Member, Committee on Finance                                 1
Chairman, Subcommittee on Social Security and Family Policy                   1
Ranking Minority Member, Subcommittee on Social Security and Family Policy    1
Chairman, Senate Special Committee on Aging                                   1
Ranking Minority Member, Senate Special Committee on Aging                    1
President, National Council of Social Security Management Associations,
  Incorporated                                                                1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                1
Social Security Advisory Board                                                1
AFGE General Committee                                                        9
President, Federal Managers Association                                       1
Regional Public Affairs Officer                                               1


Total                                                                        96


               Overview of the Office of the Inspector General
                                     Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of
the Social Security Administration’s (SSA) programs and makes recommendations to
ensure that program objectives are achieved effectively and efficiently. Financial audits,
required by the Chief Financial Officers Act of 1990, assess whether SSA’s financial
statements fairly present the Agency’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs. OA also conducts short-term management and program evaluations focused
on issues of concern to SSA, Congress, and the general public. Evaluations often focus
on identifying and recommending ways to prevent and minimize program fraud and
inefficiency.

                            Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General
(OIG) by providing information resource management; systems security; and the
coordination of budget, procurement, telecommunications, facilities and equipment, and
human resources. In addition, this office is the focal point for the OIG’s strategic
planning function and the development and implementation of performance measures
required by the Government Performance and Results Act. OEO is also responsible for
performing internal reviews to ensure that OIG offices nationwide hold themselves to
the same rigorous standards that we expect from the Agency, as well as conducting
employee investigations within OIG. Finally, OEO administers OIG’s public affairs,
media, and interagency activities and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related
to fraud, waste, abuse, and mismanagement of SSA programs and operations. This
includes wrongdoing by applicants, beneficiaries, contractors, physicians, interpreters,
representative payees, third parties, and by SSA employees in the performance of their
duties. OI also conducts joint investigations with other Federal, State, and local law
enforcement agencies.

                           Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the
Inspector General on various matters, including: 1) statutes, regulations, legislation,
and policy directives governing the administration of SSA’s programs; 2) investigative
procedures and techniques; and 3) legal implications and conclusions to be drawn from
audit and investigative material produced by the OIG. The Counsel’s office also
administers the civil monetary penalty program.
